No. 20-826
IN THE

Supreme Court of the United States
MIKE BROWN, ACTING WARDEN,
Petitioner,
v.
ERVINE DAVENPORT,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

CERTIFICATE OF SERVICE
I, Tasha J. Bahal, a member of the bar of this Court, hereby certify that, on this
18th day of February, 2021, all parties required to be served have been served copies of
Brief in Opposition in this matter by email and overnight courier to the address below.
FADWA A. HAMMOUD
MICHIGAN DEPARTMENT OF ATTORNEY GENERAL
525 W. Ottawa Street
Lansing, MI 48909
(517) 335-7628
HammoudF1@michigan.gov

TASHA J. BAHAL
WILMER CUTLER PICKERING
HALE AND DORR LLP
60 State Street
Boston, MA 02109
(617) 526-6000
tasha.bahal@wilmerhale.com

